Semiannual
Report to Congress




                     October 2011
Cover photo of Monument Valley in the Four Corners area including Utah and
Arizona, courtesy of Sigen Photography / Shutterstock.com.

This report is printed on recycled paper with soy-based inks.
                                                                                  October 2011
                                                                                     April 1, 2011 - September 30, 2011



Contents
About DOI and OIG................................................................................................ii

Message from the
Acting Inspector General.......................................................................................iii

OIG Operating Principles.......................................................................................v

Office of Inspector General....................................................................................1

Significant Narrative Summaries............................................................................9

Appendices................................................................................................................27


         Editors                    Contributors                        Images                      Production

                                     Donald Cairns
      Robert Gettlin                  Joann Gauzza                                                   Mary Maruca
       Mary Maruca                    Susan Parrott                Shutterstock.com
                                                                                                   Kimberly Pernice
     Kimberly Pernice                Gillian Sharpley
                                       Mary Strand
About DOI and OIG
        The U.S. Department of the Interior (DOI) is a large, decentralized agency with
employees and volunteers serving at approximately 2,400 operating locations across the United
States, Puerto Rico, U.S. territories, and freely associated states. DOI is responsible for 500
million acres of America’s public land, or about one-fifth of the land in the United States,
and 56 million acres of Indian Trust lands. DOI is also responsible for a variety of water and
underwater resources, including hundreds of dams and reservoirs and thousands of oil and gas
leases on millions of acres of the Outer Continental Shelf. Approximately 30 percent of the
Nation’s energy production comes from projects on DOI-managed lands and offshore areas. DOI
scientists conduct a wide range of research on biology, geology, and water to provide land and
resource managers with critical information for sound decisionmaking. DOI lands also provide
outstanding recreational and cultural opportunities to numerous visitors worldwide.

       The Office of Inspector General (OIG) promotes excellence, integrity, and
accountability in these DOI programs. With fewer than 300 employees, the organization is driven
by a keen sense of mission and dedicated to providing products and services that impact DOI
mission results.




ii                                                                Back to Toc
Message from the
Acting Inspector General



        In our April 2011 Semiannual Report to Congress, we demonstrated the impact our
work has on the lives of individuals when we reported on the case of a Bureau of Indian Affairs
(BIA) employee who was terminated for misconduct after he received computer images of
child pornography on his Government computer. Upon searching the home of the person
communicating with the BIA employee, OIG agents found pornographic digital images of the
young children who lived in the home. The children were immediately taken into protective
custody. In this issue, we report that the individuals responsible for abusing these children and
creating and distributing the pornographic images have received maximum State and Federal
sentences. An update on the case is included in this report on page 21.

        This was an example of how a single case, seemingly routine, can bring a far-reaching,
positive result. On a systemic level, too, OIG is focused on activities that go beyond our
traditional investigation and audit responsibilities; we are working constantly to detect and
identify potential problems for DOI and its bureaus before they become significant issues. Like
our more customary work, this aligns with our mission to detect and prevent fraud, waste, and
mismanagement. It also illustrates our commitment to anticipate issues, identify solutions, and
provide actionable recommendations to program managers across DOI.

        Two recent cases involving Bureau of Land Management (BLM) oil and gas leasing
are examples of how our detection and prevention effort anticipates the need for new methods
that lead to efficient Government operations. The Quinex Energy and Berry Petroleum cases
uncovered problems with BLM’s oil and gas inspection process; OIG found that Quinex Energy
altered equalizer valves on well equipment. Alteration of these devices made it difficult for BLM
to determine the exact amount of oil recovered from wells on land under Federal jurisdiction
and thus the royalty payments due to the Government. Responding to our investigations, BLM
is addressing its internal control issues by implementing new onshore oil and gas orders. These
updated supplemental regulations have been drafted and are undergoing formal review. We
expect they will help inspectors focus on the details that make the difference between spotting
fraud and abuse and overlooking such problems due to an inefficient inspection process.




                                                                                                  iii
        OIG is also developing recommendations from its evaluations of the various components
that will need to be involved in the land consolidation efforts required by the Cobell class
action settlement. The land consolidation provisions of the settlement require DOI to address
the fractionation of individual Indian lands through purchase and consolidation of fractionated
tracts. OIG has provided advisory reports stemming from several critical point evaluations to the
Deputy Secretary’s office. These are short, concise reports recommending new tools such as a
mass appraisal system and a centralized tracking system. Our Office of Audits, Inspections, and
Evaluations has formed a special team dedicated to providing these advisory reports to senior
DOI leaders throughout the Cobell implementation process.

        Our critical point evaluations model the success of OIG’s Recovery Oversight Office
(ROO), whose real-time communications have provided rapid response opportunities for the
Department to prevent fraud and waste of funds under the American Recovery and Reinvestment
Act (Recovery Act). ROO established a collaboration model with Chris Henderson, Secretary
Salazar’s former senior advisor responsible for stimulus funds under the Recovery Act. The
excellent working relationship OIG had with Henderson when he was at DOI set the standard
for successful collaboration. ROO continues to have a strong relationship with DOI as we work
together to combat fraud and mismanagement of Federal Recovery Act funds.

        We continue to explore new ways in which to leverage our resources, improve our own
fiscal accountability, and build on the services we already provide our customers. One example is
our capacity building efforts in the Pacific Insular Areas. We have reorganized our Hawaii office
to leverage our investigative and audit resources with those of the Insular Areas Public Auditors
to capitalize on efficiencies gained by a collaborative use of workforces. OIG has worked to
expand both the capacity of the local Offices of the Public Auditor (OPA) as well as their efforts
to build strong financial and program accountability. OIG has provided fraud training and other
skills development to OPA personnel; these mutually beneficial efforts are designed to foster
greater self-sufficiency and enable OPA to better monitor expenditures of Federal and local funds
and enhance accountability.

        Leveraging resources, anticipating programmatic challenges, identifying and
collaborating on solutions, and providing actionable recommendations for programmatic
improvements are the signature of an efficient, effective, and innovative OIG. We are balancing
our traditional responsibilities with new capabilities and responding to changing times with
innovations and improved processes. We believe that our customers expect, and deserve, nothing
less.




                                                 Mary L. Kendall
                                                 Acting Inspector General
iv                                                                Back to Toc
OIG Operating Principles

Mission
OIG’s mission is to provide independent oversight and promote excellence, integrity, and
accountability within the programs, operations, and management of the U.S. Department of the
Interior.

Values
OIG operates as an independent oversight organization responsible to the American people, the
Department, and Congress. We abide by the highest ethical standards and have the courage to
tell our customers and stakeholders what they need to know, not what they wish to hear. Our core
values help us fulfill our mission and include —

 •     placing highest value on objectivity and independence to ensure integrity in our
       workforce and products;
 •     striving for continuous improvement; and
 •     believing in the limitless potential of our employees.

Responsibilities
OIG is responsible for independently and objectively identifying risks and vulnerabilities that
directly impact DOI’s ability to accomplish its mission. We are required to keep the Secretary
and Congress informed of problems and deficiencies relating to the administration of DOI
programs and operations. By fulfilling our responsibilities, Americans can expect greater
accountability and integrity in Government program administration.

Activities
OIG accomplishes its mission by conducting audits, inspections, evaluations, assessments,
and investigations relating to DOI programs and operations. Our activities are tied to major
departmental responsibilities and assist DOI in developing solutions for its most serious
management and program challenges. These activities are designed to ensure that we prioritize
critical issues. Such prioritizing provides opportunities to influence key decisionmakers and
increases the likelihood that we will achieve desired outcomes and results that benefit the public.




                                                               Back to Toc                        v
Office of
Inspector General
Strategy Management Office
Strategic Changes Move OIG Forward
OIG leadership strives not only to meet the needs of our primary customers, Congress and
DOI, but also to exceed expectations. Efforts during the past year have helped us to assess and
improve our performance in a variety of ways. We conducted focused, in-person outreach to
obtain the feedback and perspectives of officials in DOI and in Congress. We identified areas
of weakness, implemented initiatives to improve those areas, and measured progress. We also
continually assessed whether our time is spent on operational and strategic activities that help us
provide our customers with information in an actionable format and timeframe.



                                                        OIG STRATEGY
                 MISSION: TO PROVIDE INDEPENDENT OVERSIGHT AND PROMOTE EXCELLENCE, INTEGRITY, AND ACCOUNTABILITY WITHIN THE PROGRAMS, OPERATIONS, AND
                                                            MANAGEMENT OF THE DEPARTMENT OF THE INTERIOR



   CUSTOMER
                                               C1: “PROVIDE ACCURATE AND                              C2: “BE RESPONSIVE IN AN
   U.S. PUBLIC                                ACTIONABLE INFORMATION THAT                              OPEN AND ACCOUNTABLE
   CONGRESS                                     IS RELEVANT AND TIMELY”                                      MANNER”
      DOJ
      DOI
                                   ...IN ORDER TO PROVIDE TOP QUALITY PRODUCTS AND SERVICES TO OUR CUSTOMERS AND FULFILL OUR MISSION.



    INTERNAL                                                                                    I3: FOLLOW STANDARD              I4: IMPROVE INTERNAL AND
                                                     I2: FOCUS ON TARGETED
   PROCESSES        I1: FOCUS ON PREVENTION                                                    APPROACHES TO EFFICIENT                  EXTERNAL
                                                          CATEGORIES
                                                                                                   WORK PROCESSES                    COMMUNICATIONS




                                                                 ...AND ACHIEVE OPERATIONAL EXCELLENCE

                          P1: FOSTER
    PEOPLE,             COLLABORATION,                                                            P3: RECRUIT, DEVELOP,              P4: ENABLE THE
   LEARNING,                                        P2: IMPROVE WORKFORCE
                          CONTINUOUS                                                                AND RETAIN A QUALITY          ORGANIZATION THROUGH
    GROWTH                                                 PLANNING
                       IMPROVEMENT, AND                                                                 WORKFORCE                      TECHNOLOGY
                           INNOVATION



                                                                  ...DEVELOP OUR PEOPLE AND EXPERTISE


                                                                            F1: EFFICIENTLY PLAN,
    FINANCIAL                                                              MANAGE, AND USE
   RESOURCES                                                            RESOURCES ACCORDING TO
                                                                             THE STRATEGIC PLAN



                                                                ...OBTAIN AND MANAGE FINANCIAL RESOURCES
                                                                                 WE WILL




OIG Strategy Map.



                                                                                                                                                            1
Providing Actionable Information

OIG leadership initiated quarterly meetings with key congressional staff and DOI officials to
gauge whether OIG is providing actionable information that is timely, relevant, and objective.
OIG leadership spoke with minority and majority staff members from congressional committees
having DOI oversight responsibilities. These included the Senate Committee on Indian Affairs,
the Senate Committee on Homeland Security and Governmental Affairs, the House Science
Subcommittee on Investigations and Oversight, and the House Natural Resources Committee.
The first set of DOI meetings focused on U.S. Fish and Wildlife Service (FWS) grant audits,
information technology audits, and recovery work.

The feedback was overwhelmingly positive and constructive. Congressional officials said they
found the discussions informative, and DOI officials reported that they rely on OIG to provide
them with reliable, relevant, and real-time information to identify, prevent, or mitigate problems.
For example —

    •   FWS officials said OIG’s work reduces the risk of state officials using fish and game
        revenues for inappropriate purposes;
    •   rapid assessment reports on Recovery Act spending served as an early warning system
        enabling officials to address OIG-identified risks, make early corrections, and prevent the
        mismanagement of funds;
    •   bureau staff could work more effectively to implement recovery projects; and
    •   the DOI Chief Information Officer and FWS officials requested greater OIG involvement
        in their programs and identified several areas for future audits and evaluations.

Insights gained from these discussions have informed our audit and workforce planning
processes for the next fiscal year (FY).

In addition to this focused outreach, OIG also sought a more collaborative approach to
identifying DOI’s FY 2012 top management challenges. After identifying broad critical areas in
DOI’s strategic plan, OIG managers met with senior DOI officials to solicit their perspectives on
the Department’s vulnerabilities. These vulnerabilities were incorporated into OIG’s selection of
top management challenges.




2
Improving Responsiveness

As an accountability organization, OIG tries to be responsive not only to our primary customers
but also to the public. One challenge has been responding to requests for information under
the Freedom of Information Act (FOIA). As a result of operational and electronic changes, we
achieved a remarkable increase in productivity in an area that challenges all Federal agencies.
OIG went from acknowledging 53 percent of requests within 7 business days to 100 percent of
requests within 7 business days in the second quarter of FY 2011 and continues to maintain this
level of performance. We also made great strides in completing FOIA requests, transitioning
from completing 7 percent of requests within 20 days in the first quarter of FY 2011 to
completing 50 percent of requests within the same timeframe in the fourth quarter. In FY 2011,
we reviewed over 1 million pages of documentation to close 141 requests. We will continue to
make progress in this critical area to respond in a timely manner.

Managing Resources in a Tight Fiscal Environment

The recent debate over the debt ceiling and balancing the budget drives home the importance
of managing resources well in a tight fiscal environment. In response to a Governmentwide
data request from the administration, we identified more than $500,000 in estimated cost
savings this year from employee, unit, and organizational actions. Many of these OIG savings,
such as savings on real estate, will carry into future years. Actions that enabled these savings
included increased use of telework, increased use of technologies such as WebEx and video
teleconferencing, closing field offices, canceling unnecessary travel, changing vendors,
negotiating utilities, and encouraging collaboration among regions.




                                                                                                   3
Recovery Oversight Office
ROO Focuses on Fraud Prevention and Outreach
Following the enactment of the American Recovery and Reinvestment Act of 2009 (Recovery
Act), OIG established the Recovery Oversight Office (ROO), with fraud prevention as a
cornerstone of its operations. ROO focused on aggressive prevention efforts to minimize losses
of DOI Recovery Act funds, which were spent at an unprecedented rate by 6 bureaus on more
than 4,000 projects. ROO brought its fraud prevention focus to the efforts already conducted
by investigations, audits, and reviews of Recovery Act programs and projects normally
encompassed by OIG oversight efforts.

ROO developed and executed a multifaceted, focused fraud prevention program for oversight of
Recovery Act funds, using the collaborative efforts of employees from multiple disciplines. This
included investigators, auditors, evaluators, and others. Implementing this program leveraged
OIG staff by elevating fraud awareness on the part of DOI and bureau staff, as well as Recovery
Act recipients. Since nearly 50 percent of fraud schemes are discovered through personal tips, an
informed community is essential to protecting taxpayer dollars.

Fraud Awareness Training
OIG collaborated with DOI’s Office of Small and Disadvantaged Business Utilization to
deliver fraud awareness training to small businesses at a training and outreach program held in
Albuquerque, NM. Comments received from the attendees included —

    •   “…it was helpful to be aware of the types of situations that can come up and to be aware
        of what to look for and how to mitigate problems”;
    •   “[it] made me think of controls and what controls we are using”; and
    •   “[the training] establishes a relationship between OIG and private business that isn’t
        threatening.”

ROO also initiated private outreach and training for contractors and recipients this year.

To date, OIG (ROO and Office of Investigations staff) has presented fraud awareness briefings to
approximately 14,000 DOI and bureau acquisition and program officials. ROO also has provided
training to recipients of Recovery Act funds in 28 states. OIG has continued to present fraud
awareness briefings at DOI University Contracting Officer’s Technical Representative (COTR)
courses as an integral part of the COTR certification curriculum. These acquisition officials
represent the first line of defense against procurement fraud. In addition, OIG has begun to
include these briefings in DOI University’s basic supervisor’s course.



4
In September 2010, an OIG advisory
raised concerns that restrictive U.S.
Geological Survey (USGS) solicitation
requirements, in conjunction with
conversations with program personnel,
may have undermined the Recovery
Act’s goal of fostering maximum
competition. As a direct result and in an
unprecedented response, the USGS Office
of Acquisition and Grants collaborated
with OIG to educate both acquisition
and program officials to enhance their
awareness of competition requirements
and contract fraud indicators. USGS
Federal Acquisition Certification-COTR
personnel were required to attend. During
the current and previous reporting period,
OIG provided training to approximately
2,000 employees in Reston, VA; Denver,
CO; Sacramento, CA; and Menlo Park,
CA.

Relationship Building
We continue to address capacity building
in the Insular Areas. Responding to
requests for procurement fraud training
from Insular Area public auditors and
Government officials, OIG senior
officials traveled to the Insular Areas
to solidify relationship-building efforts
and to provide training on procurement
processes, procurement fraud schemes,
and investigative tools and methodology.
Members of the group provided training
at multiple locations in two Federated
States of Micronesia (Yap and Pohnpei),
Guam, and American Samoa. These
efforts raised awareness of the importance
of internal controls, oversight, and
transparency in detecting and preventing     ROO has provided fraud awareness training in the Southwest.
fraud in the use of all funds.


                                                                                                       5
Applied Research
In one OIG fraud prevention effort, ROO collaborated with Recovery Act Investigative Working
Group representatives to develop and execute an applied research project that focused on
fraud prevention efforts instituted by all OIGs whose agencies received Recovery Act funds.
This research effort helped to validate the OIG’s ongoing fraud prevention efforts (especially
fraud awareness briefings, the hotline program, and relationship and capacity building). It also
highlighted several additional promising approaches that could assist in our fraud prevention and
detection efforts.

Suspension and Debarment
We improved our suspension and debarment support of DOI in 2011 by adding staff and
improving the suspension and debarment review process. These efforts preclude firms or
individuals with questionable qualifications or business integrity from receiving Federal awards
or monitor more closely organizations that have exhibited inadequate Federal fund management
in the past. Since the revitalization of its program in 2009, DOI has suspended or debarred 78
firms or individuals and entered into administrative agreements with 2 firms and 2 individuals.
OIG was commended by the Administrator for Federal Procurement Policy and the Chair of the
Interagency Suspension and Debarment Committee during a hearing before the Commission
on Wartime Contracting for dedicating the necessary resources and administering an effective
suspension and debarment program in coordination with DOI.

Conclusion
These multi-pronged efforts led by diverse staff help OIG focus on fraud prevention and ensure
greater accountability for Recovery Act funds.




6                                                                      Back to Toc
ROO staff have worked extensively with auditors in the Insular Areas.




                                                                        7
U.S. Department
of the Interior
Climate Friendly Parks Initiative:
An Opportunity for NPS to Meet Environmental Mandates

OIG assessed the National Park Service’s (NPS) Climate Friendly Parks Initiative (CFP) to
determine whether CFP-member parks benefit from participation and whether this initiative helps
NPS meet Federal environmental sustainability goals. Our evaluation found that the initiative
has created an environment of climate stewardship among member parks, although deficiencies
in accountability and other areas may make it difficult to match CFP accomplishments to the
requirements mandated by presidential executive order.

The mission of NPS is to preserve the natural and cultural resources of the national park system
for the enjoyment, education, and inspiration of current and future generations. In keeping with
this mission, and recognizing its potential to educate on the impacts from climate change, NPS
collaborated with the U.S. Environmental Protection Agency in 2002 to establish CFP. The
organizations worked together under an interagency agreement until mid-2009, at which point
NPS took full control of the initiative.




NPS’s Climate Friendly Parks Initiative focuses staff and visitors on the impact of climate change.


                                                                                                      9
By mid-2011, 24 national parks had become CFP members, with more than 40 others in the
process of becoming members. CFP provides resources and support with which parks can
measure and reduce greenhouse gas emissions, develop methods for maintaining natural and
cultural resources while experiencing climate change, and provide public education on climate
change topics. CFP empowers employees from various park units and divisions to collaborate on
innovative approaches and serve as role models for climate stewardship.

On October 5, 2009, the President signed Executive Order (EO) 13514, which establishes
sustainability goals for Federal agencies to improve environmental, energy, and economic
performance. To meet these goals, NPS has developed the Green Parks Plan, a comprehensive
strategy for sustainable management that, among other things, calls on all parks to join the CFP
network. OIG is concerned that progress made under CFP may not easily transfer to the EO-
mandated requirements due to deficiencies in accountability, data quality and assurance, and
program sustainability.

We found an absence of accountability once a park develops an action plan and becomes a CFP
member. The process places more emphasis on becoming a member than on actions taken once
membership is achieved. No standard mechanism exists to measure, track, and report a park’s
progress toward intended outcomes or to analyze actions.

Further, the manner in which greenhouse gas inventory data are collected, verified or validated,
and updated at CFP-member parks puts NPS at risk of overstating or underreporting emission
levels associated with park operations. The inventory tool used to measure emissions also has not
been updated to meet greenhouse gas reporting requirements. There is no requirement to review
and validate the accuracy of inventory data.

Currently, NPS is enhancing its CFP design to meet new Federal environment mandates.

OIG Finds Nuclear Gauges Properly Secured, Decrease in Violations

OIG evaluated the portable nuclear gauge radiation protection programs of DOI bureaus,
including the Bureau of Indian Affairs (BIA), the Bureau of Land Management (BLM), the
Bureau of Reclamation (USBR), and the United States Geological Survey (USGS), because
misuse of a portable nuclear gauge poses a radiation hazard and creates a potentially high-dollar
impact if lost, stolen, or improperly disposed.

A gauge is a portable tool that uses small radioactive sources to determine moisture and density
levels for various types of projects. BIA, BLM, and USBR use gauges to engineer roads and
other construction projects. USGS uses gauges to take scientific measurements of moisture
content in soils above the water table. Gauges contain radioactive sources harmful to users and
10
to the public if not properly stored, used, transported, and disposed. Because of these radioactive
materials, the U.S. Nuclear Regulatory Commission (NRC) regulates gauges, in part by issuing
licenses and performing compliance inspections.

At DOI, seven NRC licenses are held by BIA, BLM, USBR, and USGS. These 4 bureaus
manage about 30 portable nuclear gauges in 9 states. BIA has 3 licenses in 3 states (15 gauges),
BLM has 1 license in 1 state (2 gauges), USBR has 2 licenses in 2 states (5 gauges), and USGS
has 1 license with gauge permits in 3 states (8 gauges). In addition, the departmental manual
requires each bureau to have a written radiation safety program. Each bureau has a designated
safety and health official, as well as safety managers who oversee specific safety programs,
including radiation protection. The radiation safety program requires a qualified officer to
oversee radiation safety at each applicable facility.

Overall, we found gauges to be properly secured during storage and transportation. We also
noted a decrease in the number of violations issued by NRC during its inspections. We found,
however, a number of shortcomings in program management that could pose safety risks and
lead to additional NRC violations in the future.

We found that BIA’s radiation safety and protection program demonstrated the most deficiencies,
yet its Muskogee, OK, program proved to be the best across all bureaus. We noted the level
of care and the security focus at Muskogee as a best practice that each of the bureaus should
incorporate into their policies. BLM and USBR also have sound gauge-use policies in place, and
since they use gauges in much the same way as BIA, BIA could benefit from reviewing their
policies and retooling its own to fill any gaps.

During our field data collection process, each bureau began to take action to correct any
deficiencies identified. The bureaus developed and implemented plans to remedy noted
deficiencies, such as training, annual self-reviews, and recordkeeping. BIA is also in the
process of completing a Bureauwide policy for radiation safety and protection to avoid future
deficiencies.

OIG Provides Program Startup Tool to Department

OIG conducted an evaluation of four DOI programs to examine program planning processes
and determine which program planning models lead to success. OIG asked bureaus to identify
successful programs and expand on their planning processes. By identifying successful planning
processes, OIG provided useful tools to DOI and its bureaus in developing new programs or
revising existing programs. OIG evaluated programs from the Office of Surface Mining (OSM),
U.S. Fish and Wildlife Service (FWS), U.S. Geological Survey (USGS), and the U.S. Bureau of
Reclamation (USBR).
                                                                                                 11
                                                Program planning is a problem-solving process through
                                                which an organization develops a plan to achieve
                                                specific objectives. Program planning involves a variety
                                                of elements, including identifying program needs and
                                                capacity, planning for resource allocation and use,
                                                assuring service delivery, preparing to respond to critical
                                                events, and evaluating program activities and outcomes.

                                                While effective planning does not guarantee a program’s
                                                success, an effective planning process helps justify
                                                program budgets, determines program priorities, defines
                                                program goals, and provides a means for evaluating
                                                program accomplishments.

                                                Each program planning model was tailored to meet the
                                                specific needs of the bureau based on a standard 7-step
                                                planning process. The standard process begins with
                                                identifying the problem, then developing objectives
                                                and performance measures. Next, the program strategy
                                                should be linked to the organizational strategic plan.
                                                Then DOI or the bureau should identify key stakeholders
                                                and needed resources, followed by coordinating program
                                                activities. The final step in the standard planning process
                                                is collecting feedback and evaluation.

                                                In planning the Appalachian Regional Reforestation
                                                Initiative, OSM used a collaboration-based program
                                                planning model. OSM focused on building and
                                                maintaining trust among stakeholders, establishing
                                                a common goal, and using the strengths of the
                                                stakeholders to achieve program objectives.

                                                By using a business-based program planning model for
                                                the Chesapeake Bay Restoration effort, FWS focused
  OSM used a collaboration-based approach       on using cost analysis to make management decisions
program planning model for the Appalachian
                                                about where and how to target conservation activities
           Regional Reforestation Initiative.
                                                efficiently. Through this planning process, FWS could
                                                eliminate inefficiencies in resource allocations by
                                                coordinating with the Bureau’s regional partners.


  12
USGS used a science-based program planning model for its Global Climate Change
program, which focuses on applying the best evidence resulting from the scientific method
to decisionmaking processes. This program planning model was designed to encourage
collaboration at all bureau and partner levels in order to establish credible scientific data.

USBR used a performance-based program planning model for the Water Sustain and Manage
America’s Resources for Tomorrow (WaterSMART) grant program, which focuses on managing
organizational performance by evaluating program results. This model developed program goals,
the criteria needed to obtain the goals, and the procedures to develop and maintain the program.
USBR also solicited input directly from its partners, which allowed the Bureau to better meet the
needs of the end users.

AQD-Sierra Vista Provides Very Limited Services to DOI

OIG inspected the Acquisition Services Directorate (AQD)-Sierra Vista to determine the benefits
and risks to DOI in continuing interagency contracting activities. AQD-Sierra Vista provides
acquisitions services for DOI, as well as other Federal agencies, under the Working Capital Fund.
An agency that provides services as a working capital fund is not allowed to make a profit or
retain any excess funds.

AQD-Sierra Vista has been the subject of multiple audit reports issued by our office, the
Department of Defense (DoD) OIG, and the Government Accountability Office (GAO), all
of which criticized components of AQD-Sierra Vista’s interagency contracting practices that
involve monitoring, funding, and competition of contracts.

OIG’s inspection found that DOI assumes most of the risk with operating an interagency
contracting office such as AQD-Sierra Vista, and receives little benefit in return. DOI transactions
accounted for only approximately 2.4 percent of the total contract actions awarded in fiscal year
(FY) 2009 and FY 2010.

In addition, AQD-Sierra Vista accepts requests for purchases and the requisite accompanying
funds from its customers late in the fiscal year. This practice puts AQD-Sierra Vista at risk of
issuing contracts improperly, of potentially violating the bona fide needs rule, and of spending
expired funds. The bona fide needs rule states that a fixed-term fund is available only for
payment of expenses properly incurred during the period of availability or to complete contracts
within that period. AQD-Sierra Vista has not included cutoff dates in its policies to avoid these
situations.




                                                                                                 13
OIG also found that AQD-Sierra Vista’s contracting officers (CO) have not effectively monitored
contracts for compliance with 8(a) subcontracting limitations, which require the contractor to
complete at least 50 percent of the personnel-based contract costs with its own employees. OIG
advised DOI to standardize procedures for COs and pay specific attention to the Limitation of
Subcontracting rule.

Based on the low number of DOI-related transactions that AQD-Sierra Vista conducts and the
simplicity of the contracts it awards for DOI customers, OIG recommended that management
consider whether AQD-Sierra Vista could be restructured or put to more advantageous use
elsewhere in DOI.

FWS Offices Working to Improve
Control of Grants and Cooperative Agreements

OIG evaluated grants and cooperative agreements funded in fiscal years 2007 through 2009 by
the U.S. Fish and Wildlife Service (FWS). OIG assessed whether control activities by the FWS
Pacific Regional Office and the Pacific Islands Fish and Wildlife Office (PIFWO) could prevent
and detect fraud and wasteful spending. We found that in administering financial grants and
cooperative agreements PIFWO did not meet its fiscal responsibilities, while the Pacific Regional
Office failed to provide effective oversight. OIG offered nine recommendations to correct the
deficiencies. FWS is working to correct these issues.

PIFWO develops partnerships and awards financial assistance to private land owners and
conservation groups for projects in Hawaii and throughout the Pacific islands. These projects
include conservation projects, conservation research, and related activities including training,
conferences, and public outreach. Despite existing guidelines and policies as to how to
administer and control grants and cooperative agreements, OIG found that PIFWO inadequately
ensured impartiality, transparency, and accountability when awarding and administering these
funds. Key controls developed by DOI have not been implemented effectively in the Pacific
region. Also, the grants management review performed to ensure proper oversight of program
assistance is inadequately documented and contains significant design flaws. Specifically, the
person who completed most of the financial assistance review checklists also performs the grants
management review, effectively reviewing his or her own work.




14
OIG also identified ethical concerns relating to conflicts of interest and favoritism toward
preferred recipients that put FWS’s credibility at risk. Currently, FWS has no requirement for
PIFWO grant administrators to disclose relationships, memberships, or positions held with
outside organizations — even with those receiving FWS grants or cooperative agreements. In
addition, nongovernmental organizations acting as fiscal agents could be used to bypass Federal
and state procurement systems.

Although partnership with non-Federal landowners is essential to conserving threatened and
endangered species and their habitats in Hawaii and other Pacific islands, corrective action is
needed to address the ineffective implementation of controls and the numerous ethical concerns
and indicators of potential fraud that we have found. If these issues are not addressed properly,
millions of taxpayer dollars will continue to be at significant risk for favoritism and fraud. FWS
is currently working to correct and protect against this risk.




The Green Sea Turtle nests throughout the Pacific region.




                                                                                                 15
Unfunded Liability Threatens Default of the
Virgin Islands’ Government Employees Retirement System

In an evaluation of the Virgin Islands’ Government Employees Retirement System, OIG found
that the system could default in 14 to 19 years, or less, due to a growing unfunded liability of
more than $1.4 billion. The contributing factors include employee-employer contribution levels,
the ratio of active members to retired members, and early retirement legislative mandates. As
a result, the long-term sustainability of the system, which is comprised of just over 18,000
members, is critically at risk.

Between 1984 and 2001, the Virgin Islands Legislature passed various laws designed to
encourage early retirement. The Legislature failed, however, to sufficiently fund these laws.
Moreover, 648 employees took advantage of the early retirement packages, which prevented the
retirement system from collecting $121 million.

We also found that the system does not always ensure that member contributions are made
on time, nor does it maintain accurate data on members. The retirement system has recorded
contributions unsupported by official personnel records, failed to reliably record member service-
entry dates, and documented service-entry dates that conflict with official personnel records.

OIG recommended that the Government of the Virgin Islands (GVI) establish a taskforce of
financial experts to determine how to address the difference between current and recommended
payroll contribution levels; develop and implement measures to improve the system’s
sustainability; ensure that any future early retirement provisions are adequately funded; and
require retirement system managers to identify areas for improvement, including timely
contribution collections and the accuracy and integrity of member data. GVI agreed with all
recommendations and is in the process of implementation.

Deficiencies Found in BIA Control of Wildland Fire Suppression Funds

OIG audited the Bureau of Indian Affairs’ (BIA) administration of wildland fire suppression
funds because of concerns raised by Congress about rising costs, as well as cases from our Office
of Investigations about appropriate use of funds.

Congress appropriates around $900 million each year to DOI’s Office of Wildland Fire
Coordination for management of wildland fires. The funds are then allocated to the bureaus
with wildland fire responsibilities — BIA, the Bureau of Land Management, the U.S. Fish and
Wildlife Service, and the National Park Service.


16
BIA is allocated about $170 million for wildland
fire management, which includes preparedness,
suppression, and hazardous fuels reduction.
These BIA funds serve to protect people, wildlife,
property, and habitat by providing resources for
fire management programs, reducing the risk of
fires, and suppressing specific fires.

We found deficiencies in BIA’s control of
wildland fire suppression funds that increase the
risk of fraud, waste, and abuse. The most serious
deficiencies relate to tribal agreements, cost
monitoring, recording of obligations/expenses,
and paying of expenses. These control deficiencies
jeopardize DOI wildland fire suppression
effectiveness because fire suppression funds are
shared throughout DOI and impact the wildland
firefighting activities of states, Indian tribes, and
other entities because they share fire suppression
responsibilities.

OIG recommended that BIA determine when
to use specific tribal agreements and identify
appropriate funding mechanisms; develop and
require use of a standardized template for each
type of tribal agreement and provide clear
instructions to ensure consistency; conduct
regularly scheduled fire preparedness reviews for
regional offices at least every 5 years; develop and
implement guidance on performance of thorough
financial management reviews; establish and
implement procedures for the regular analysis
of fire suppression financial data; and develop
and implement policies and procedures to ensure
prompt recording of wildland fire suppression
obligations/expenses and prompt payment of           Deficiencies were found in BIA’s control of
                                                     wildland fire suppression funds.
expenses.




                                                                                                   17
BIA concurred with all recommendations and is in the process of implementing new policies to
improve wildland fire management and decrease the risk of future deficiencies regarding control
of wildland fire suppression funds.

More Than $1 Million Stolen over 10 Years from Tribal Credit Program

This far-reaching OIG investigation began in July 2009 when allegations of improper
disbursements by Federal and tribal Fort Peck Credit Program employees first surfaced.
Investigators pursued allegations that employees approved and received excessive loans and
direct payments from the credit program without authorization or proper documentation.
For at least 10 years, six employees routinely removed funds from bank accounts they were
unauthorized to access and disbursed that money either to themselves or to family members. The
employees confessed to this fraud scheme and to intentionally altering credit program records in
September 2007 to conceal the scheme from a Federal review team.

In January 2010, the Federal Grand Jury in Billings, MT, issued the first of a series of criminal
indictments alleging a 10-year criminal conspiracy dating from 1999 to 2009. The conspirators
allegedly embezzled more than $1 million from the Fort Peck Credit Program, which is the
recipient of Bureau of Indian Affairs (BIA) funds to promote American Indian financial
opportunities.

The BIA Branch of Credit maintained program oversight for more than 10 years, until June
2008. During this time, BIA employees exercised approval authority for certain short-term loans
and maintained signature authority over credit program bank accounts. The six credit program
employees involved in the scheme at that time all pleaded guilty to various felony charges,
including conspiracy and obstruction of justice. All six were incarcerated and given prison terms
that ranged from 24 to 45 months.

As the scope of our investigation expanded, four more individuals were charged and convicted
for their participation in the fraud. Included in the latest round of criminal convictions was the
city clerk for the town of Poplar, MT, as well as the BIA Agency Superintendent, a 37-year
career Federal employee and the highest ranking BIA employee at the Fort Peck Agency.




18
On March 18, 2011, an indictment was returned against BIA Superintendent Florence White
Eagle. The indictment alleged that White Eagle conspired with Toni Greybull, a former BIA
administrative officer (now deceased) to convert tribal funds from the program. White Eagle
also was charged with five additional felony counts that included misprision of a felony, bribery,
financial conflict of interest, false statements, and conversion of tribal funds. White Eagle
was convicted of all six felony charges in June after a 1-week jury trial in Great Falls, MT.
Sentencing is scheduled for October.

The Fort Peck Credit Program investigation is ongoing. To date, 10 people have been convicted.
Prison sentences of 227 months and restitution in the amount of $828,493 have been ordered
by the U.S. District Court against the nine individuals sentenced to date. The Fort Peck Tribes
filed a $3.2 million tort claim against BIA in November 2010, alleging willful negligence and
malfeasance in regards to BIA’s oversight of the credit program.

On September 2, 2011, the Office of the Solicitor (SOL) notified the Fort Peck Tribe that their
tort claim had been denied. SOL noted that the financial losses had been caused by the illegal
actions of Federal and tribal employees acting outside the scope of their employment. SOL
further determined that no evidence demonstrated negligent or wrongful actions on the part of
Government employees as the cause of the damage.

Crow Creek Tribal Chairman Convicted
In Bribery and Kickback Schemes

A joint OIG – FBI investigation that already resulted in bribery and kickback convictions at
the Crow Creek Tribal Schools recently concluded with the indictment of Crow Creek Tribal
Chairman Duane Big Eagle. Big Eagle’s conviction involved a bribery scheme dating back to
2005.

Initially, this long-standing investigation focused on $1.3 million allocated to Crow Creek Tribal
Schools in Stephan, SD, by the Bureau of Indian Affairs’ (BIA) Office of Facilities Management
and Construction (OFMC). These funds financed new dormitory and kitchen facilities at Crow
Creek Tribal Schools, replacing those destroyed by fire on the main campus in April 2005. The
scope of the joint investigation eventually expanded to cover several million dollars in OFMC-
funded construction projects completed between 2003 and 2006. The Crow Creek Tribal Schools
also received more than $7 million annually for its education programs and operations from the
Bureau of Indian Education.




                                                                                                  19
The bribery and kickback schemes developed when Crow Creek’s school superintendent took
bribes from contractors who wanted the opportunity to replace burned-out school facilities. He
also conspired with several other school employees to steal school funds.

As we continued to acquire information, our investigation expanded to include Duane Big Eagle.
Big Eagle served as the tribe’s chairman between 2004 and 2006. He was elected to that position
again in 2010.

In October 2010, an indictment filed in U.S. District Court for the District of South Dakota
charged Big Eagle with bribery, conspiracy to commit bribery, and aiding and abetting. In August
2011, at the conclusion of a 4-day trial, a jury convicted Big Eagle on one count of bribery and
two counts of conspiracy and aiding and abetting. Big Eagle subsequently resigned from his
tribal position. He is scheduled for sentencing in November.

Northern Arapaho Nation Employees Indicted for Conspiracy and Theft

In January 2011, the executive director, former finance administrator, and former payroll clerk
for the Northern Arapaho Nation’s Department of Social Services were indicted in U.S. District
Court for the District of Wyoming on conspiracy, aiding and abetting, and theft concerning
programs receiving Federal funds.

The indictments resulted from allegations that George Moss, the executive director, conspired
with and aided and abetted Melody St. Clair, a former finance administrator, and Amanda
Addison, a former payroll clerk, by authorizing payroll advances and loans and signing the
Department of Social Services checks, which facilitated their theft of Federal funds totaling
approximately $163,000.

In June 2011, Moss pleaded guilty to one count of aiding and abetting. In July 2011, Addison
was tried and convicted on one count of theft from programs receiving Federal funds. Both are
scheduled for sentencing. St. Clair’s trial is scheduled for November 2011.

Two Former Tribal Employees Sentenced for Theft of Federal Funds

Two former Chuloonawick Native Village (CNV) employees were sentenced in Federal District
Court in Anchorage, AK, for stealing funds from a tribal organization between 2005 and 2007.
CNV is a Federally recognized tribe in Emmonak, AK, funded by the Bureau of Indian Affairs
(BIA) under a tribal self-determination contract. OIG initiated the investigation in response to
allegations that BIA funds had been stolen through unauthorized cash withdrawals and purchases
from the tribal account.

20
On June 9, 2011, the former CNV bookkeeper was sentenced to 4 months of home confinement,
5 years of probation, and restitution of $21,845. On September 9, 2011, the former CNV tribal
administrator was sentenced to 12 months in prison, 3 years of supervised release, and restitution
of $99,574.

Child Pornographers Sentenced in Federal and State Courts

A married couple in Aloha, OR, has received Federal and State sentences after pleading guilty
in both Federal District Court and Washington County Circuit Court to 27 counts of allowing
a child to be used in the production of child pornography and the production, possession,
transportation, and receipt of child pornography. On June 21, 2011, the husband received a
Federal sentence of 49 years, and on July 12, 2011, the wife received a Federal sentence of 45
years. On July 13, 2011, both individuals received the maximum State sentence of 42 years to be
served concurrently with their Federal sentences.

This investigation was a cooperative effort with U.S. Immigration and Customs Enforcement,
the National Center for Missing and Exploited Children, and the local police department. It
was initiated in January 2010 after the DOI Office of the Chief Information Officer notified
OIG of email correspondence exchanged between the husband and a Bureau of Indian Affairs
(BIA) employee pertaining to the sexual exploitation of a minor. BIA terminated the employee,
who was indicted on one count of receipt of child pornography. On September 26, the former
employee appeared before the Magistrate Court where he entered a plea of not guilty to receipt
of child pornography. Until his trial, he is on supervised release, which includes electronic
monitoring and no contact with minor children.

Quinex Settlement with BLM

In August 2011, the Bureau of Land Management (BLM) entered into a settlement agreement
with Quinex Energy Corporation, in which Quinex agreed to pay $100,000 in civil penalties. The
civil penalty resulted from an OIG and BLM investigation. The investigation uncovered evidence
that a Quinex executive had requested the alteration of equalizer valves installed on multiple
crude oil wells operating near Roosevelt, UT, on land under Federal jurisdiction.

Quinex altered the equalizer valves to appear closed when they were open so that the valves
would not actually isolate the sales tank in the sales phase as mandated by BLM regulations.
OIG’s investigation further disclosed that company officials submitted several incomplete and
misleading facility diagrams to BLM by omitting the equalizer line or valve on the facility
diagrams. The investigation also exposed weaknesses and limitations in BLM’s inspection
process.

                                                                                                21
                                                The equalizer valve regulations are intended to
                                                ensure proper measurement and accountability
                                                for oil removed or sold from the lease. The
                                                investigation found no evidence of a scheme to
                                                steal oil or reduce royalty payments, which are
                                                paid to the Office of Natural Resources Revenue
                                                (ONRR).

                                                Quinex did not admit liability as part of the
                                                settlement. Quinex inspected and replaced the
                                                altered equalizer valves under the supervision
                                                of BLM personnel and filed revised facility
                                                diagrams.

                                                Enel Green Power Settles
                                                Allegations of Royalty
                                                Underpayment

                                                In a settlement with the U.S. Attorney’s Office
                                                (USAO) for the District of Colorado, Enel Green
                                                Power North America, Inc., paid $31,000 to
                                                the United States to resolve allegations that the
                                                company underpaid geothermal royalties. The
                                                settlement resulted from an OIG investigation
                                                that closely coordinated with the Office of
                                                Natural Resources Revenue (ONRR) and USAO.

                                                On or about March 20, 2007, Enel acquired a
                                                geothermal operation in the Stillwater area
                                                near Fallon, NV. A geothermal operation uses
                                                naturally occurring steam to create energy,
                                                which includes generating electricity. Congress
                                                authorized DOI to lease Federal land to private
                                                companies able to harness geothermal resources
     Oil rig drilling in the Texas panhandle.   and produce energy. Under these leases,
                                                companies must pay royalties for the privilege of
                                                using Federal land. ONRR collects the royalties.



22
Each month, companies must report the royalties they owe to ONRR. As a result of the OIG
investigation, the United States alleged that Enel did not pay the proper amount of royalties
between January 1, 2005, and December 31, 2009. Enel paid less than the lease royalty rate,
relying on an ONRR handbook that provides guidance to companies with Federal leases. The
USAO asserted that Enel’s documentation of its compliance with the handbook provisions was
inadequate and, thus, that additional royalties were due.




Geothermal power station.




                                                                                                23
Sales Representative Sentenced for
Putting Saipan Hemodialysis Patients at Risk

On July 25, 2011, Jesse C. Wu was sentenced to 30 days in jail, 7 months of home detention,
23 months of supervised release, 100 hours of community service, and a fine of $10,000 after
pleading guilty to criminal information charging one count of wire fraud, filed in the U.S. District
Court of Northern Mariana Islands in Saipan. Wu was sentenced in the U.S. District Court of the
Central District of California, located in Los Angeles County, where he lived and from where he
faxed a false certification.

Wu falsified the certification of a reverse-osmosis water purification unit that was sold for use
in a new dialysis unit at the Commonwealth Health Center in Saipan. Wu claimed the unit met
certain Food and Drug Administration standards. OIG led the investigation, with assistance from
the FBI.

Investigation Sparks Change At NPS Site

An OIG investigation substantiated allegations that Cheryl Brown Henderson’s selection as
the superintendent of the National Park Service (NPS) Brown v. Board of Education National
Historic Site created a conflict of interest because of her personal relationships with members
of the Brown Foundation, for which she had served as president, and because she did not
comply with an NPS recusal agreement. We also found that the recruitment process for the
superintendent may have provided an unfair preference to Brown Henderson.

The Brown Foundation is a nonprofit organization formed in 1988 in Topeka, KS, by the family
of Oliver L. Brown, the named plaintiff in the landmark case, Brown v. Board of Education.
Cheryl Brown Henderson, his daughter, served as the Foundation’s president and chief executive
officer from its inception until June 2010, when she began her tenure as the superintendent of the
NPS site that provides visitors with information about the case.

The Foundation has a cooperative agreement with the site to develop training materials and
curriculum guides and to help NPS staff develop exhibits and interpretive programming. NPS
provides the Foundation with $300,000 annually.

Brown Henderson’s relationships with Foundation employees led NPS to develop a recusal
document to address any conflicts of interest. The recusal barred Brown Henderson’s
involvement in current or future cooperative agreements between NPS and the Foundation for 12
months. Brown Henderson, however, continued to attend Foundation board meetings and discuss
Foundation financial issues, contrary to the provisions of the recusal agreement.

24
In addition, the vacancy announcement was listed under two distinct job series: a merit
promotion announcement open only to current Federal employees and an open competitive
announcement open to all U.S. citizens. Although the Midwest Region and other NPS regions
previously advertised superintendent vacancies under dual series, no vacancies had been open to
all U.S. citizens. Consequently, this announcement provided an unprecedented opportunity for all
U.S. citizens, including Brown Henderson, to apply for the position.

During our investigation, Brown Henderson resigned her NPS position and returned to her
previous position as executive director of the Brown Foundation.




                                                               Back to Toc
                                                                                             25
Appendices
                                                                                                                                    Appendix 1
Statistical Highlights
Investigative Activities
Cases Closed.................................................................................................................................264
Cases Opened................................................................................................................................251
Hotline Complaints/Inquiries Received........................................................................................154

Criminal Prosecution Activities
Indictments/Informations.................................................................................................................8
Convictions....................................................................................................................................13
Sentencings......................................................................................................................................9

   - Jail..............................................................................................................................1,187 mos.
   - Probation.......................................................................................................................275 mos.
   - Community Service........................................................................................................120 hrs.
   - Criminal Penalties..........................................................................................................$246,979

Criminal Matters Referred for Prosecution.....................................................................................10
Criminal Matters Declined this Period.............................................................................................8

Civil Investigative Activities
Civil Referrals ..................................................................................................................................4
Civil Declinations..............................................................................................................................1
Civil Settlements .............................................................................................................1 ($31,000)

Administrative Investigative Activities
Downgrades.....................................................................................................................................2
Removals..........................................................................................................................................1
Resignations.....................................................................................................................................2
Retirements......................................................................................................................................3
Suspensions......................................................................................................................9 (52 days)
Reprimands/Counseling.................................................................................................................11
Reassignment/Transfers...................................................................................................................2
Bill for Collection Issued.................................................................................................2 ($11,169)
General Policy Actions....................................................................................................................32
Contractor Suspensions.....................................................................................................................1
Contractor Debarments...................................................................................................................31
Notice of Civil Penalty..................................................................................................1 ($100,000)
Bureau Non-Responsive*...............................................................................................................30
   (BIA 6, BIE 1, NPS 3, NPS IA 9, SOL 1, BLM 6, BOEM 3, USGS 1)
* Bureau Non-Responsive is a category indicating failure by a bureau to respond to referral for administrative action.


                                                                                                                                               27
Appendix 1
Statistical Highlights
Audit- and Evaluation-Related Activities
Reports Issued.................................................................................................................................36
   Performance Audits, Financial Audits, Evaluations, Inspections, and Verifications................27
   Contract and Grant Audits...........................................................................................................6
   Single Audit Quality Control Reviews.......................................................................................3

Audit and Evaluation Impacts
Total Monetary Impacts....................................................................................................$1,447,802
   Questioned Costs (includes unsupported costs).........................................................$1,447,802
   Recommendations That Funds Be Put to Better Use.................................................................0

     Audit and Evaluation Recommendations Made......................................................................69
     Audit and Evaluation Recommendations Closed...................................................................260

Recovery Oversight Office Impacts
Total Products Issued......................................................................................................................21

     Advisory Reports........................................................................................................................8
     Other (non-published) products................................................................................................13

Recommendations Made................................................................................................................15
Recommendations Closed..............................................................................................................13




28
                                                                                        Appendix 2
Reports Issued During the 6-Month Reporting Period
This list includes all audit, inspection, and evaluation reports issued during the 6-month period
that ends September 30, 2011. It provides report number, title, issue date, and monetary amounts
identified in each report (*Funds To Be Put to Better Use, **Questioned Costs, and
***Unsupported Costs).

Audits, Evaluations, and Verifications

       Bureau of Ocean Energy Management

               B-EV-BOEM-0003-2011
               Management Advisory on the Lack of Documentation during our Final
               Audit of Costs Incurred by Accenture LLP under Contract No. M99PC14572
               (No. K-CX-BOEM-0001-2011) (04/15/2011)

       Indian Affairs

               ER-IN-BIA-0004-2011
               Office of Inspector General’s Independent Report on the Bureau of Indian Affairs’
               Fiscal Year 2010 Accounting and Performance Summary Review Report for the
               Office of National Drug Control Policy (04/15/2011)

               WR-EV-BIA-0001-2011
               Advisory - Indian Land Consolidation: Mass Appraisals of Indian Lands
               (06/13/2011)

               ER-IN-BIA-0016-2009
               Final Audit Report - Bureau of Indian Affairs: Wildland Fire Suppression
               (07/13/2011)

               C-VS-BIA-0003-2011
               Verification Review of Three Recommendations from Our May 2007 Flash
               Report, “Bureau of Indian Affairs and Bureau of Indian Education: Schools in
               Need of Immediate Action, (Report No. C-IN-BIA-0008-2007)” (09/22/2011)




                                                                                               29
Appendix 2
             C-VS-BIE-0006-2011
             Review of Three Recommendations from Our April 2008 Report No. Q-IN-
             BIA-0005-2007 Titled “Bureau of Indian Education Background Investigations”
             (09/26/2011)

       Insular Area Reports

             VI-IS-VIS-0001-2011
             Evaluation - Verification of Watch Quota and Jewelry Quota Data for Calendar
             Year 2010 Submitted by Firms Located in the U.S. Virgin Islands (04/20/2011)

             VI-EV-VIS-0002-2010
             Evaluation Report - Administrative Functions of the Virgin Islands Government
             Employees Retirement System (09/27/2011)

       Multi-Office Assignments

             VI-VS-MOA-0003-2011
             Verification Review of Recommendations for the Inspection Report, “Final Report
             - Passport Offices Failing to Manage and Secure Employee Passports (Report
             No. ER-EV-MOA-0002-2008), May 2009” (08/16/2011)

             X-IN-MOA-0007-2011
             Independent Accountants’ Report on Applying Agreed-Upon Procedures
             for the U.S. Department of the Interior, U.S. Department of Education, U.S.
             Department of Transportation, National Aeronautics and Space Administration,
             Nuclear Regulatory Commission, National Science Foundation, and Social
             Security Administration (09/08/2011)

             C-VS-MOA-0004-2011
             Verification Review of Nine Recommendations from Our September 2008
             “Final Audit Report: DOI’s Hurricane Rebuilding Efforts (Report No. C-IN-
             MOA-0006-2007)” (09/16/2011)

             C-IN-MOA-0016-2010
             Closeout - Public Law 93-638 Contracts (09/27/2011)

             C-EV-MOA-0010-2010
             Final Evaluation Report - Portable Nuclear Gauges (09/28/2011)


30
                                                                                  Appendix 2
       ER-EV-MOA-0001-2010
       U.S. Department of the Interior Program Startup Evaluation (09/28/2011)

       WR-VS-MOA-0012-2011
       Verification Review of Six Recommendations from our April 2007 Report
       “Private Use of Public Lands, National Park Service and Bureau of Land
       Management” (Report No. W-IN-MOA-0008-2005) (09/29/2011)

       WR-VS-MOA-0013-2011
       Verification Review of 24 Recommendations from our September 2009 Report
       “Evaluation of Department of the Interior Challenge Cost Share Programs”
       (Report No. WR-EV-MOA-0004-2008) (09/29/2011)

National Park Service

       ER-VS-NPS-0007-2011
       Verification Review of Recommendations for the Evaluation Report, “History
       Collection in Jeopardy at Harpers Ferry Center”
       Report No. Y-EV-NPS-0004-2008, July 2008 (06/24/2011)

       HI-EV-NPS-0001-2010
       Evaluation - National Park Service: Climate Friendly Parks Initiative (08/12/2011)

       NM-VS-NPS-0001-2011
       Verification Review of Three Recommendations from Our June 2007 Flash
       Report, “National Park Service: Hazardous Conditions of Yosemite’s Wawona
       Tunnel Endangers Lives” (Report No.C-IN-NPS-0007-2007) (09/22/2011)

Office of Insular Affairs

       VI-EV-OIA-0004-2011
       Evaluation Report - Administrative Functions of the Virgin Islands Government
       Employees Retirement System (09/27/2011)

Office of the Secretary

       ER-IS-NBC-0003-2011
       Inspection - Acquisition Service Directorate - Sierra Vista Organization
       (07/14/2011)


                                                                                         31
Appendix 2
             ER-VS-PMB-0009-2011
             Verification Review of Recommendations for the June 2009 Evaluation Report,
             “Reorganization of the Working Capital Fund and the Interior Franchise Fund
             (Assignment No. ER-EV-PMB-0001-2009)” (08/02/2011)

             C-VS-DMO-0005-2011
             Verification Review of Six Recommendations from Our March 2008 Audit Report
             No. C-IN-MOA-0011-2006 Titled “Health and Safety Concerns at Department of
             the Interior’s Facilities” (09/28/2011)

       Office of the Special Trustee

             WR-EV-OST-0010-2011
             Advisory - Indian Land Consolidation: Need for an Appraisal Tracking System
             (07/18/2011)

       U.S. Fish and Wildlife Service

             X-IN-FWS-0007-2010
             Independent Biennial Auditors’ Report on the Audit of Expenditures and
             Obligations used by the Secretary of the Interior in the Administration of the
             Wildlife and Sport Fish Restoration Programs Improvement Act of 2000 for Fiscal
             Years 2007 Through 2008 and Fiscal Years 2009 Through 2010 (04/04/2011)

             HI-EV-FWS-0001-2009
             Evaluation - U.S. Fish and Wildlife Service Grants and Cooperative Agreements
             in Hawaii and the Pacific Islands (06/15/2011)

             C-IS-FWS-0017-2010
             Inspection - Status of Rocky Flats National Wildlife Refuge (07/21/2011)

Contract and Grant Audits

       National Park Service

             WR-CX-NPS-0009-2011
             Audit of the KGCI, Inc. Settlement Proposal for Termination for Convenience
             of the Government under Contract No. 1443C2011100224 with the National Park
             Service (06/29/2011) **$819,514

32
                                                                                  Appendix 2
     U.S. Fish and Wildlife Service

           R-GR-FWS-0014-2010
           U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the State of Delaware, Department of Natural Resources and
           Environmental Control, From July 1, 2008, Through June 30, 2010 (05/31/2011)
           ***$15,089

           K-CX-FWS-0002-2011
           Costs Claimed by Singleton Enterprises for Modification No. 2 under
           Contract No. 60181RC004, with the U.S. Fish and Wildlife Service (06/09/2011)
           **$147,145 ***$140,557

           R-GR-FWS-0005-2011
           U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the State of South Carolina, Department of Natural Resources,
           From July 1, 2008, Through June 30, 2010 (06/28/2011) **$52,583

           R-GR-FWS-0003-2011
           U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the State of Arizona, Department of Game and Fish,
           From July 1, 2008, Through June 30, 2010 (07/08/2011) **$30,217 ***$20,700

           R-GR-FWS-0004-2011
           U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the State of Georgia, Department of Natural Resources, From
           July 1, 2008, Through June 30, 2010 (07/08/2011) **$13,121 ***$72,382

Single Audit Quality Control Reviews

     Multi-Office Assignments

           B-QC-MOA-0006-2010
           Quality Control Review - Audit of Ouzinkie Tribal Council for Fiscal Year Ending
           September 30, 2009 (07/25/2011)

           B-QC-MOA-0005-2011
           KPMG Audit of Central Utah Water Conservancy District Fiscal Year Ending
           June 30, 2010 (09/01/2011)

                                                                                         33
Appendix 2
             B-QC-MOA-0001-2011
             Deloitte & Touche Audit of the Government of Guam Fiscal Year Ending
             September 30, 2009 (09/27/2011)

Recovery Oversight Office Advisories

       Indian Affairs

             RO-J-BIA-064-2010
             Tribal Expansion of Bob Hope Drive (05/20/2011)

       Multi-Office Assignments

             RO-B-MOA-095-2010
             Energy Efficiency Impacts on Operations and Maintenance (05/17/2011)

             RO-F-MOA-058-2011
             Summary of Recovery Oversight Office Outreach Efforts between October 2010
             and February 2011 (06/15/2011)

             ROO-MA-MOA-008-2010
             Transparency and Accountability of Recovery Act Funding to the Insular Areas
             and Freely Associated States (07/07/2011)

       National Park Service

             RO-D-NPS-067-2011
             National Park Service Contract C2011101023 (06/06/2011)

             RO-F-NPS-036-2011
             Blue Ridge Stone Guard Wall (05/04/2011)

       U.S. Bureau of Reclamation

             RO-B-USBR-0109-2010
             U.S. Bureau of Reclamation Rural Water Projects (08/15/2011)




34
                                                                           Appendix 2
U.S. Fish and Wildlife Service

      RO-F-FWS-019-2011
      Recovery Oversight Discrepancy Report - U.S. Fish and Wildlife Service Cedar
      Point Drainage Ditch Cleanout Project and the Performance of Work by
      Contractor Clause (04/07/2011)




                                                                                     35
Appendix 3
Monetary Resolution Activities
Table 1: Inspector General Reports with Questioned Costs*

                                 Number of Reports   Questioned Costs*    Unsupported Costs
 A. For which no                        4                   $13,158,052          $12,729,873
 management decision
 has been made by the
 commencement of
 the reporting period.
 B. Which were issued                        6               $1,447,802             $385,222
 during the reporting
 period.
 Total (A+B)                                 10             $14,605,854          $13,115,095
 C. For which a                               4               $249,118             $101,605
 management decision
 was made during the
 reporting period.

 (i) Dollar value of                                          $199,082               $35,789
 recommendations
 that were agreed to
 by management.

 (ii) Dollar value of                                           $50,036              $65,816
 recommendations
 that were not agreed
 to by management.
 D. For which no                             6              $14,356,736          $13,013,490
 management decision
 had been made by the
 end of the reporting
 period.


*Note: Does not include non-Federal funds.




36
                                                                                Appendix 3
Monetary Resolution Activities
Table II: Inspector General Reports with Recommendations
         That Funds Be Put to Better Use*

                                             Number of Reports   Dollar Value
 A. For which no management                         2                           $ 13,951
 decision has been made by
 the commencement of the
 reporting period.
 B. Which were issued during                        0                                 $0
 the reporting period.
 Total (A+B)                                        2                           $13,951
 C. For which a management                          1                            $5,447
 decision was made during the
 reporting period.

 (i) Dollar value of                                                             $5,447
 recommendations that were
 agreed to by management.

 (ii) Dollar value of                                                                 $0
 recommendations that were
 not agreed to by management.
 D. For which no                                    1                            $8,504
 management decision had
 been made by the end of the
 reporting period.


*Note: Does not include non-Federal funds.




                                                                                       37
Appendix 4
Summary of Reports Over 6 Months Old
Pending Management Decision
This list includes a summary of audit, inspection, and evaluation reports more than 6 months
old on September 30, 2011, and still pending a management decision. It provides report number,
title, issue date, and number of unresolved recommendations.

Audits, Evaluations, and Verifications

       Bureau of Land Management

              WR-IN-BLM-0003-2010
              Follow-up to Office of Policy Analysis Report, “Review of Selective Aspects of
              the Federal Helium Program,” June 2010 (10/18/2010); 1 Recommendation

       Bureau of Ocean Energy Management

              CR-EV-MMS-0015-2010
              A New Horizon: Looking to the Future of the Bureau of Ocean Energy
              Management, Regulation and Enforcement (12/07/2010); 1 Recommendation

       Indian Affairs

              NM-EV-BIE-0001-2008
              Evaluation of Controls to Prevent Violence at Bureau of Indian Education
              Operated Education Facilities (08/01/2008); 1 Recommendation

              WR-EV-BIA-0005-2010
              Final Evaluation - Bureau of Indian Affairs’ Detention Facilities (03/31/2011);
              3 Recommendations

       Insular Area Reports

              P-EV-FSM-0001-2007
              Kosrae State, Federated States of Micronesia: Property Accountability Process
              Needs To Be Improved (10/17/2007); 3 Recommendations




38
                                                                              Appendix 4
      VI-EV-VIS-0002-2009
      Evaluation Report - Energy Production in the Virgin Islands (12/28/2009);
      4 Recommendations

      VI-IN-VIS-0003-2009
      Final Audit Report - Capital Improvement Projects Administrative Functions
      - Procurement Deficiencies Plague the Virgin Islands Port Authority (09/08/2010);
      1 Recommendation; $443,300 unresolved

      VI-IS-VIS-0004-2009
      Inspection Report - Security Improvements at the Governor’s Private Residence
      (01/19/2010); 4 Recommendations; $490,000 unresolved

Multi-Office Assignments

      C-IN-MOA-0004-2007
      Abandoned Mine Lands in the Department of the Interior (07/24/2008);
      1 Recommendation

Office of the Secretary

      WR-EV-OSS-0005-2008
      Flash Report - Department of the Interior: Risking People and Property by
      Flying Airplanes in Excess of Federal Aviation Administration and Manufacturer
      Specifications (02/09/2009); 1 Recommendation

U.S. Bureau of Reclamation

      WR-FL-BOR-0007-2010
      Follow-up - Bureau of Reclamation’s Management of Exclusive Use Recreation
      Areas (02/24/2011); 1 Recommendation

U.S. Fish and Wildlife Service

      C-IS-FWS-0007-2010
      Inspection Report - Museum Collections: Preservation and Protection Issues with
      Collections Maintained by the Fish and Wildlife Service (01/29/2010);
      1 Recommendation



                                                                                     39
Appendix 5
Summary of Reports Over 6 Months Old
Pending Corrective Action
This is a list of audit, inspection, and evaluation reports more than 6 months old with
management decisions for which corrective action has not been completed. It provides report
number, title, issue date, and the number of recommendations without final corrective action.
These audits and evaluations continue to be monitored by the Branch Chief for Internal Control
and Audit Follow-up, Assistant Secretary for Policy, Management and Budget, for completion of
corrective action.

       Bureau of Land Management

              CR-EV-BLM-0002-2009
              Evaluation of Bureau of Land Management’s Oil and Gas Lease Auction Process
              (08/26/2009); 3 Recommendations

              WR-IN-BLM-0003-2010
              Follow-up to Office of Policy Analysis Report, “Review of Selective Aspects of
              the Federal Helium Program,” June 2010 (10/18/2010); 3 Recommendations

              CR-EV-BLM-0001-2009
              Evaluation Report of the Bureau of Land Management’s Oil and Gas Inspection
              and Enforcement Program (12/02/2010); 8 Recommendations

              C-IS-BLM-0018-2010
              Bureau of Land Management Wild Horse and Burro Program (12/13/2010);
              3 Recommendations

       Bureau of Ocean Energy Management

              CR-EV-MMS-0015-2010
              A New Horizon: Looking to the Future of the Bureau of Ocean Energy
              Management, Regulation and Enforcement (12/07/2010); 37 Recommendations




40
                                                                             Appendix 5
Indian Affairs

      ER-IN-BIA-0014-2009
      Office of Inspector General’s Independent Report on the “ONDCP [Office
      of National Drug Control Policy] Performance Summary Report - BIA”
      (11/10/2009); 3 Recommendations

      NM-EV-BIE-0003-2008
      Evaluation Report - School Violence Prevention (02/03/2010);
      3 Recommendations

      WR-EV-BIA-0002-2010
      Evaluation - Coordination of Efforts to Address Indian Land Fractionation
      (01/04/2011); 6 Recommendations

Insular Area Reports

      V-IN-VIS-0004-2005
      Controls Over Video Lottery Terminal Operations, Government of the Virgin
      Islands (06/08/2007); 2 Recommendations

      P-EV-FSM-0001-2007
      Kosrae State, Federated States of Micronesia: Property Accountability Process
      Needs To Be Improved (10/17/2007); 5 Recommendations

      V-IN-VIS-0011-2006
      Collection of Outstanding Taxes and Fees, Government of the Virgin Islands
      (01/10/2008); 3 Recommendations

      V-IN-VIS-0001-2007
      Administrative Functions, Roy Lester Schneider Regional Medical Center,
      Government of the Virgin Islands (07/28/2008); 4 Recommendations

      P-EV-GUA-0002-2008
      Tax Collection Activities, Government of Guam, Revitalized Tax Collection and
      Enforcement Effort Needed (11/26/2008); 2 Recommendations

      V-IN-VIS-0003-2007
      U.S. Virgin Islands Workers’ Compensation Benefits at Risk (11/28/2008);
      3 Recommendations
                                                                                      41
Appendix 5
             VI-IS-VIS-0002-2008
             Final Evaluation Report - Virgin Islands Police Department Evidence Integrity at
             Risk (03/31/2009); 10 Recommendations

             VI-IN-VIS-0003-2009
             Final Audit Report - Capital Improvement Projects Administrative Functions
             - Procurement Deficiencies Plague the Virgin Islands Port Authority (09/08/2010);
             1 Recommendation

       Multi-Office Assignments

             2002-I-0045
             Recreational Fee Demonstration Program - National Park Service and Bureau of
             Land Management (08/19/2002); 1 Recommendation

             E-EV-MOA-0008-2004
             Department of the Interior Workers’ Compensation Program (05/09/2005);
             1 Recommendation

             C-IN-MOA-0049-2004
             Department of the Interior Concessions Management (06/13/2005);
             1 Recommendation

             C-IN-MOA-0007-2005
             U.S. Department of the Interior Radio Communications Program (01/30/2007);
             5 Recommendations

             C-IN-MOA-0004-2007
             Abandoned Mine Lands in the Department of the Interior (07/24/2008);
             3 Recommendations

             C-EV-MOA-0009-2008
             Evaluation Report on Oil and Gas Production on Federal Leases: No Simple
             Answer (02/27/2009); 2 Recommendations

             WR-EV-MOI-0006-2008
             Evaluation of the Department of the Interior’s Accountability of Desktop and
             Laptop Computers and their Sensitive Data (04/24/2009); 1 Recommendation



42
                                                                       Appendix 5
WR-EV-MOI-0008-2008
Employee Relocation, U.S. Department of the Interior (09/21/2009);
3 Recommendations

C-IN-MOA-0010-2008
Audit Report - Department of the Interior Museum Collections: Accountability
and Preservation (12/16/2009); 11 Recommendations

C-EV-MOA-0003-2009
Evaluation Report - Department of the Interior Roads Programs: The Dangers of
Decentralization (02/01/2010); 1 Recommendation

CR-IS-MOA-0004-2009
Inspection Report - BLM and MMS Beneficial Use Deductions (03/08/2010);
4 Recommendations

C-EV-MOA-0004-2009
Evaluation Report - Geothermal Royalties (03/09/2010); 3 Recommendations

C-IN-MOA-0001-2009
Final Audit Report - Department of the Interior’s Management of Land
Boundaries (07/16/2010); 5 Recommendations

ER-EV-MOA-0012-2009
Wildland Urban Interface: Community Assistance (07/30/2010);
3 Recommendations

X-IN-MOA-0004-2010
Independent Auditors’ Report on the U.S. Department of the Interior Financial
Statements for FY2010 and FY2009 (11/15/2010); 5 Recommendations

X-IN-MOA-0003-2011
Independent Auditor’s Management Letter on the U.S. Department of the Interior
Financial Statements for Fiscal Years 2010 and 2009 (01/21/2011);
1 Recommendation




                                                                                43
Appendix 5
       National Park Service

              1998-I-0406
              Follow-up of Recommendations Concerning Utility Rates Imposed by the
              National Park Service (04/15/1998); 5 Recommendations

              C-IN-NPS-0013-2004
              The National Park Service’s Recording of Facility Maintenance Expenditures
              (01/26/2005); 2 Recommendations

       Office of Insular Affairs

              WR-EV-OIA-0007-2008
              Evaluation of Office of Insular Affairs’ Program Management (05/25/2010);
              1 Recommendation

              VI-IN-OIA-0004-2010
              Final Audit Report - Capital Improvement Projects Administrative Functions:
              Procurement Deficiencies Plague the Virgin Islands Port Authority (09/08/2010);
              1 Recommendation

       Office of the Secretary

              ER-IN-OSS-0009-2009
              Audit of the International Technical Assistance Program (07/21/2010);
              3 Recommendations

       Office of the Special Trustee

              WR-IS-OST-0006-2009
              Whereabouts Unknown: An evaluation of actions taken to locate Whereabouts
              Unknown individuals by the Office of the Special Trustee for American Indians
              (06/10/2010); 2 Recommendations

       U.S. Bureau of Reclamation

              C-IS-BOR-0006-2010
              Inspection Report - Museum Collections: Preservation and Protection Issues with
              Collections Maintained by the Bureau of Reclamation (01/29/2010);
              1 Recommendation
44
                                                                             Appendix 5
      WR-FL-BOR-0007-2010
      Follow-up - Bureau of Reclamation’s Management of Exclusive Use Recreation
      Areas (02/24/2011); 3 Recommendations

U.S. Fish and Wildlife Service

      97-I-1305
      Audit Report on the Automated Law Enforcement System, U.S. Fish and Wildlife
      Service (09/30/1997); 1 Recommendation

      X-IN-FWS-0024-2006
      Independent Biennial Auditors’ Report on the Expenditures and Obligations Used
      by the Secretary of the Interior in the Administration of the Wildlife and Sport
      Fish Restoration Programs for Fiscal Years 2003 Through 2004 and Fiscal Years
      2005 Through 2006 (Report No. X-IN-FWS-0024-2006) (5/14/2009);
      2 Recommendations

      NM-EV-FWS-0001-2010
      Evaluation - The National Bison Range (03/30/2011); 1 Recommendation




                                                        Back to Toc                 45
Cross-References to the Inspector General Act
                                                                                       Page
Section 4(a)(2)            Review of Legislation and Regulations                       N/A*

Section 5(a)(1)            Significant Problems, Abuses, and Deficiencies              9-25

Section 5(a)(2)            Recommendations for Corrective Action With Respect          38-45
                           to Significant Problems, Abuses, and Deficiencies

Section 5(a)(3)            Significant Recommendations From Agency’s Previous          40-45
                           Reports on Which Corrective Action Has Not Been Completed

Section 5(a)(4)            Matters Referred to Prosecutive Authorities and             27
                           Resulting Convictions

Section 5(a)(5)            Matters Reported to the Head of the Agency                  N/A

Section 5(a)(6)            Audit Reports Issued During the Reporting Period            29-35

Section 5(a)(7)            Summary of Significant Reports                              9-25

Section 5(a)(8)            Statistical Table: Questioned Costs                         36

Section 5(a)(9)            Statistical Table: Recommendations That Funds Be Put        37
                           to Better Use

Section 5(a)(10)           Summary of Audit Reports Issued Before the Commencement     38-39
                           of the Reporting Period for Which No Management Decision
                           Has Been Made

Section 5(a)(11)           Significant Revised Management Decisions Made               N/A
                           During the Reporting Period

Section 5(a)(12)           Significant Management Decisions With Which                 N/A
                           the Inspector General is in Disagreement

Section 5(a)(13)           Information Described Under Section 804(b) of the Federal   N/A
                           Financial Management Improvement Act of 1996

*N/A: Not applicable to this reporting period.
U.S. Department of the Interior
  Office of Inspector General
      1849 C Street NW.
      Mail Stop 4428, MIB
     Washington, DC 20240

       www.doioig.gov

     Phone: 202-208-4618
      Fax: 202-208-6062
